                                                                       United States Department of State
                                                                       and the Broadcasting Board of Governors

                                                                       Office of Inspector General


                                                                                 JUN 11 2014




Mr. Andre Mendes
Director of Global Operations
Broadcasting Board of Governors
330 Independence Avenue SW, Room 3360
Washington, DC 20237

Dear Mr. Mendes:

Subject: Report on FY 2013 Risk Assessment of Travel and Purchase Card Programs at the
         Broadcasting Board a/Governors (AUD-CG-IB-14-28)

The Government Charge Card Abuse Prevention Act of 20li (the Act) requires the Office of
Inspector General (OIG) to conduct periodic assessments of agency purchase and travel card
programs that identify and analyze risks of illegal, improper, or erroneous purchases and
payments for use in determining the scope, frequency, and number of periodic audits of these
programs. The FY 2013 risk assessment was the first such review conducted of the travel and
pmchase card programs of the Broadcasting Board of Governors (BBG). Travel and purchase
card program size, internal controls, training, reported violations,2 previous OIG audits, and OIG
Office oflnvestigations (OIG/INV) forensic audit observations were considered in assessing the
risks.

The ri sk assessment was not an audit and therefore not conducted in accordance with generally
accepted government auditing standards. The results of the risk assessment should not be
interpreted to conclude that travel and purchase card programs with lower risk are free of illegal,
improper, or erroneous use or internal control deficiencies. Conversely, a higher-risk program
may not necessarily signify illegal, improper, or erroneous use- only that conditions are
conducive to those activities. Regardless of the ri sk assessment results, if the travel and purchase
card programs were to be audited, a team may identify such issues through independent testing
of travel and purchase card data. For example, a purchase card program may be found to be
"very low risk" based on documentation and other information provided by agency officials, the
number of cardholders, and the total amount of purchase card expenditures. However, an audit
of that purchase card program may determine that the controls outlined in an agency's policy are
not being followed and that illegal, improper, or erroneous activity is occurring. The risk
assessment was designed to identify the programs where the OIG Office of Audits should focus
its limited resources.

1
 Pub. L. No. I 12-l94.
2
 Reported violations are applicable only to purchase card programs. Violations are required to be reported if the
agency spends more than$ I 0 million annually.

                                               UNCLASSIFIED
                                            UNCLASSIFIED

The results of the assessment show that the risk of illegal, improper, or erroneous use in the BBG
travel card program is “medium” and for the purchase card program is “very low.” As a result,
audits of the programs were not recommended for inclusion in the OIG FY 2015 annual audit
plan. 3

                                      Scope and Methodology

OIG’s Office of Audits performed this risk assessment from March to May 2014. The objective
was to assess the risk of illegal, improper, and erroneous use of the purchase and travel card
programs to determine the scope, frequency, and number of audits recommended to be
conducted. The assessment was conducted using industry standard principles for risk
management. 4 The risk assessment was conducted by Melinda M. Perez, Director, Contracts and
Grants Division, and Beverly J.C. O’Neill, Audit Manager, Contracts and Grants Division.

Assessment Criteria

To conduct the risk assessment, OIG reviewed FY 2013 charge card data, documentation, and
information provided by BBG officials; however, OIG did not independently verify or validate
the data obtained from agency officials. We assessed the travel card program based on four
criteria and the purchase card program on five criteria. The criteria are described in the
paragraphs that follow.

        Internal Controls. Using the criteria identified in the Act and Office of Management
and Budget (OMB) Circular No. A-123, 5 internal controls were assessed for the travel card and
purchase card programs. The travel card program was assessed for 28 general controls and 18
controls specific to travel card programs (46 total controls), and the purchase card program was
assessed for the same 28 general controls and 29 controls specific to purchase card programs (57
total controls). A rating of “lower,” “medium,” or “higher” was assigned based on documented
compliance with required controls.

        Training. The travel card and purchase card programs were assigned a rating of “lower,”
“medium,” or “higher” based on the availability of training and the incorporation of training in
policy for each program.

        Previous OIG Audits. Results of previous audits, as well as the statuses of
implementation of recommendations, were reviewed for the travel card and purchase card
programs. A program that had not been audited was assigned a “higher” rating, and the same
rating was assigned for an audit that had been conducted more than 10 years ago. A “lower”

3
  The results of the risk assessment do not preclude OIG from reviewing BBG’s travel card or purchase card
programs during FY 2015 or at any other time.
4
  “Enterprise Risk Management – Integrated Framework Executive Summary,” Committee of Sponsoring
Organizations of the Treadway Commission, Sept. 2004, and “Risk Assessment in Practice,” Deloitte & Touche
LLP, Oct. 2012.
5
  OMB Circular No. A-123, “Management’s Responsibility for Internal Control,” App. B, “Improving the
Management of Government Charge Card Programs,” Jan. 15, 2009.
                                                 2
                                            UNCLASSIFIED
                                             UNCLASSIFIED

rating was assigned when a program had been recently audited and recommendations had been
implemented. A “medium” rating was assigned for programs that had been audited recently but
for which recommendations had not been fully implemented. The ratings were mitigated if
documentation of meaningful internal reviews (conducted by the agency) was provided.

        OIG/INV Forensic Audit Observation. Ratings of “lower,” “medium,” or “higher”
were assigned for each travel card and purchase card program based on input from OIG/INV
forensic auditors. We met with the OIG/INV forensic audit manager to discuss the progress in
using data mining to review travel card and purchase card transactions for BBG. The
information provided by OIG/INV may have included results of its analyses and interviews with
the agency officials responsible for the travel and purchase card programs. Details related to
each program are described in the Results of Risk Assessment section of this report.

       Violation Reports. Violation reports were considered only for the purchase card
program, as these reports are required when a purchase card program spends more than
$10 million per year. 6 A rating of “lower” was assigned if a report was provided and a lower
number of violations had been reported. 7

Impact and Likelihood

Impact refers to the extent to which a risk event might affect BBG, and likelihood represents the
possibility that a given event might occur. We used the dollars spent in each travel card and
purchase card program to determine an impact rating of “lower,” “medium,” or “higher” and the
number of cardholders in each program to determine a likelihood rating of “lower,” “medium,”
or “higher.” The rating criteria are shown in Table 1.

               Table 1. Impact and Likelihood Ratings
                     Rating                    Impact                        Likelihood
                 Lower                Less than $1 million           Fewer than 250 cardholders
                 Medium               $1 million to $10 million      250 to 500 cardholders
                 Higher               More than $10 million          More than 500 cardholders
                Source: OIG developed based on review of multiple sources, including industry standard
                principles for risk management.

The impact and likelihood ratings were compared to determine a single “factor” that was used in
the final overall risk assessment for the travel card and purchase card programs. We plotted the
impact and likelihood ratings on a chart known as a “heat map,” which depicts the intersections
of the lower, medium, and higher ratings, to determine a rating for the impact and likelihood
factor. The heat map is shown in Table 2.




6
 OMB M-13-21, “Implementation of the Government Charge Card Abuse Prevention Act of 2012,” Sept. 6, 2013.
7
 BBG’s purchase card program did not meet the minimum requirements for reporting violations and was therefore
given a rating of “n/a,” as shown in the Results of Risk Assessment section of this report.
                                                  3
                                             UNCLASSIFIED
                                             UNCLASSIFIED


                Table 2. Impact and Likelihood Factor Heat Map
                                                                       Factor
                                    Higher          Medium             High        Very High
                     Impact
                                    Medium            Low            Medium          High
                     Rating
                                    Lower           Very Low           Low          Medium
                                                     Lower           Medium         Higher
                                                                 Likelihood Rating
                Source: OIG developed based on review of industry standard principles for risk management.

Final Risk Assessment

OIG combined the individual criteria ratings to form an overall combined rating and used this
rating with the impact and likelihood factor to determine the final risk assessments for BBG’s
travel and purchase card programs. Specifically, we used the final assessment heat map shown
in Table 3 to arrive at the overall risk assessment ratings.

                Table 3. Final Assessment Heat Map
                                                                    Final Rating
                                    Very High       Medium             High             Very High
                   Impact and       High            Medium             High             Very High
                   Likelihood       Medium           Low              Medium               High
                     Factor         Low            Very Low             Low              Medium
                                    Very Low       Very Low             Low              Medium
                                                     Low              Medium               High
                                                            Combined Criteria Rating
                 Source: OIG developed based on review of industry standard principles for risk management.


                                     Results of Risk Assessment

The results of the assessment show that the risk of illegal, improper, or erroneous use in BBG’s
travel card program is “medium” and for the purchase card program is “very low.” As a result,
audits of the programs were not recommended for inclusion in the OIG FY 2015 annual audit
plan. 8 Although audits of the programs are not planned, OIG suggests that both travel card and
purchase card program managers take appropriate actions to ensure and improve oversight of the
programs. The individual program results are described in the sections that follow.

Broadcasting Board of Governors Travel Card

        Criteria Ratings. According to documentation and information provided by the BBG
travel card office, OIG determined that the travel card program’s compliance with required
internal controls was generally good—overall 98 percent were in compliance (45 of 46 controls),
to include 94 percent in compliance (17 of 18 controls) with travel card-specific controls,
resulting in a rating of “lower” for this criterion. The availability of training and incorporation of
8
 The results of the risk assessment do not preclude OIG from reviewing BBG’s travel card or purchase card
programs during FY 2015 or at any other time.
                                                  4
                                             UNCLASSIFIED
                                             UNCLASSIFIED

training in policy were rated “lower” because the travel card office provided detailed
documentation and policies regarding the required training for program participants. The BBG
travel card program has not been audited by OIG. However, BBG travel card procedures were
included in a 2013 OIG inspection 9 that resulted in a recommendation for improvements to be
made to the program. That recommendation is in the process of being implemented and has not
been closed; therefore, the program was rated “medium” for this criterion. OIG/INV forensic
auditors had only recently received access to the BBG travel card data and had not made any
observations for consideration in this assessment. Because of this limited information, a rating
of “medium” was assigned to the program for this criterion. The individual criteria ratings and
overall combined rating are shown in Table 4.

                 Table 4. Criteria Summary
                             Criteria                            Rating
                  Internal Controls                              Lower
                  Training                                       Lower
                  Prior OIG Audits                               Medium
                  OIG/INV Input                                  Medium
                  Combined                                        Low
                 Source: OIG generated based on analysis of information and documentation
                 as described in the Scope and Methodology section of this report.

       Impact and Likelihood Factor. The BBG travel card office reported that in FY 2013,
BBG spent a total of $2.3 million (a breakdown of centrally billed accounts (CBA) and
individually billed accounts (IBA) was not provided), which was attributed to 651 cardholders (6
CBAs and 645 IBAs). The impact and likelihood factor, shown in Table 5, raised the risk
associated with the BBG travel card program.

                  Table 5. Impact and Likelihood Factor
                                                                     Rating
                  Impact              $2.3 million                   Medium
                  Likelihood          651 cardholders                Higher
                  Factor                                  High
                  Source: OIG generated based on analysis of information and documentation
                  as described in the Scope and Methodology section of this report.

        Final Risk Assessment. The final determination of risk of illegal, improper, or
erroneous use in the BBG travel card program was “medium.” An audit of BBG’s travel card
program was not recommended for inclusion in the OIG FY 2015 annual audit plan; 10 however,
OIG suggests that the travel card program manager take appropriate actions to ensure and
improve oversight of the program. The OIG FY 2014 risk assessment will carefully consider the
progress of OIG/INV forensic auditors’ data mining efforts and the status of implementation of
the outstanding OIG inspection recommendation.


9
 Inspection of U.S. International Broadcasting to Russia (ISP-IB-13-50, Sept. 2013).
10
  The results of the risk assessment do not preclude OIG from reviewing BBG’s travel card program during
FY 2015 or at any other time.
                                                  5
                                             UNCLASSIFIED
                                              UNCLASSIFIED

Broadcasting Board of Governors Purchase Card

        Criteria Ratings. According to documentation and information provided by the BBG
purchase card office, OIG determined that purchase card program compliance with required
internal controls was generally good—overall 95 percent were in compliance (54 of 57 controls),
to include 90 percent in compliance (26 of 29 controls) with purchase card-specific controls,
resulting in a rating of “lower” for this criterion. The availability of training and the
incorporation of training in BBG policy were rated “lower” because the purchase card office
provided detailed documentation and policies regarding the required training for program
participants. The last audit of the BBG purchase card program was conducted in 2005 (reported
in August 2006), 11 and all of the recommendations have since been closed. In addition, BBG
provided documentation of internal reviews that were conducted that mitigated the risk and
dropped the rating for this criterion to “lower.” OIG/INV forensic auditors had only recently
received access to the BBG purchase card data and had not made any observations for
consideration in this assessment. Because of this limited information, a rating of “medium” was
assigned to the program for this criterion. The BBG purchase card program did not meet the
reporting requirements for violations and was therefore not rated on this criterion. The
individual criteria ratings and overall combined rating are shown in Table 6.

                   Table 6. Criteria Summary
                               Criteria                           Rating
                    Internal Controls                             Lower
                    Training                                      Lower
                    Prior OIG Audits                              Lower
                    OIG/INV Input                                 Medium
                    Violation Report                               n/a
                    Combined                                       Low
                    Source: OIG generated based on analysis of information and documentation
                    as described in the Scope and Methodology section of this report.

       Impact and Likelihood Factor. The BBG purchase card office reported that in
FY 2013, BBG spent approximately $5.3 million, which was attributed to 91 cardholders. The
impact and likelihood factor, shown in Table 7, reduced the risk associated with the BBG
purchase card program.

                   Table 7. Impact and Likelihood Factor
                                                                      Rating
                    Impact             $5.3 million                   Medium
                    Likelihood         91 cardholders                 Lower
                    Factor                                  Low
                    Source: OIG generated based on analysis of information and documentation
                    as described in the Scope and Methodology section of this report.

       Final Risk Assessment. The final determination of risk of illegal, improper, or
erroneous use in the BBG purchase card program was “very low.” An audit of BBG’s purchase

11
     Review of the Broadcasting Board of Governors Purchase Card Program (AUD/IB-06-15, Aug. 2006).
                                                   6
                                              UNCLASSIFIED
                                            UNCLASSIFIED

                                                                                                     12
card program was not recommended for inclusion in the OIG FY 2015 annual audit plan;
however, OIG suggests that the purchase card program manager take appropriate actions to
ensure and improve oversight of the program. The OIG FY 2014 risk assessment will carefully
consider the progress of OIG/INV forensic auditors' data mining efforts.

This report was provided for informational purposes, and a response is not required. OIG
appreciates the cooperation and assistance provided by your staff during this risk assessment. If
you have any questions please contact me by email at~ or Melinda M. Perez,
                                                     [Redacted] (b) (6)


Division Director, by email at~.
                              [Redacted] (b) (6)




Sincerely,

fJv-~
Norman P. Brown
Assistant Inspector General
 for Audits

cc: IBB/OCFO - Salina James
    IBB/OPR - Susan Andross




12
 The results of the ri sk assessment do not preclude OIG from reviewing BBG's purchase card program during
FY 20 15 or at any other time.
                                                  7
                                             UNCLASSIFIED
